  Department of Health and Human Services
                    OFFICE OF
               INSPECTOR GENERAL




 ILLINOIS SIGNIFICANTLY REDUCED
       MEDICAID COSTS FOR
HOME BLOOD-GLUCOSE TEST STRIPS
       BUT COULD ACHIEVE
     ADDITIONAL REDUCTIONS


   Inquiries about this report may be addressed to the Office of Public Affairs at
                            Public.Affairs@oig.hhs.gov.




                                                    Gloria L. Jarmon
                                                 Deputy Inspector General

                                                         May 2013
                                                       A-05-12-00009
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

The Medicaid program provides medical assistance to low-income individuals and individuals
with disabilities. The Federal and State Governments jointly fund and administer the Medicaid
program. At the Federal level, the Centers for Medicare & Medicaid Services (CMS)
administers the Medicaid program. Each State administers its Medicaid program in accordance
with a CMS-approved State plan. Although the State has considerable flexibility in designing
and operating its Medicaid program, it must comply with applicable Federal requirements.

State Medicaid agencies may obtain a waiver from CMS to establish special procedures for the
purchase of medical devices, including home blood-glucose test strips (test strip). A number of
States have established arrangements in which manufacturers of test strips agree to provide a
rebate to States for each of the manufacturers’ products dispensed to Medicaid recipients and
billed to State Medicaid agencies. The Indiana Medicaid program obtained a waiver from CMS
on December 1, 2010, to implement a selective contracting program for test strips and
established rebate contracts with two manufacturers. The Illinois Department of Healthcare and
Family Services’ (State agency) State plan allows for the negotiation of rebates with test strip
manufacturers.

The State agency solicited proposals for rebates from manufacturers of test strips. The State
agency awarded contracts to four manufacturers on the basis of a clinical review of the product
and a financial analysis of the rebate amount. Medicaid beneficiaries could obtain test strips
from providers enrolled in the Illinois Medicaid program. The beneficiaries could also purchase
test strips not covered by one of the rebate agreements but only after obtaining a State agency
prior authorization based on medical necessity. Illinois’ manufacturer rebate program began
operating in June 2004.

OBJECTIVE

Our objective was to determine whether the Illinois Medicaid program could achieve savings for
test strips.

SUMMARY OF FINDINGS

Through its manufacturer rebate program, the Illinois Medicaid program reduced the net cost of
test strips purchased during State fiscal year (SFY) 2011. The net cost of test strips obtained
through Illinois’ manufacturer rebate program was significantly lower than the Illinois Medicaid
average reimbursement rate for test strips. The State agency’s use of manufacturer rebates led to
reduced costs that provided mutual benefits to the State and Federal Governments, while
maintaining access to test strips for Illinois Medicaid beneficiaries.

However, we determined that the Illinois average Medicaid provider reimbursement rate for test
strips was significantly greater than the corresponding Illinois Medicare rate. The higher
provider reimbursement rates in Illinois may have limited the amount of cost-savings the State

                                                i
could achieve with its rebate program. The manufacturer rebate, which is not based on the
Illinois reimbursement rate for test strips, offsets only a portion of the significantly greater
provider reimbursement rate. The net Medicaid payment rates Illinois obtained through
manufacturer rebates were significantly greater than the corresponding Indiana Medicaid rate.
By reducing its provider reimbursement rates, Illinois could further lower the net cost of test
strips. If it had used this approach, which reflects the Indiana Medicaid program’s experience,
the Illinois Medicaid program could have achieved additional savings of approximately
$8.5 million for SFY 2011.

RECOMMENDATION

We recommend the State agency lower the net cost of test strips through changes to provider
reimbursement rates, which could have resulted in an additional $8.5 million in savings in
SFY 2011.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our recommendation.




                                                ii
                                                  TABLE OF CONTENTS

                                                                                                                              Page

INTRODUCTION................................................................................................................1

          BACKGROUND .......................................................................................................1
              Federal Requirements ....................................................................................1
              Illinois Medicaid Manufacturer Rebate Program ..........................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY .....................................................2
               Objective ........................................................................................................2
               Scope ..............................................................................................................2
               Methodology ..................................................................................................2

FINDINGS AND RECOMMENDATION.........................................................................3

          COST SAVINGS ACHIEVED BY THE ILLINOIS MEDICAID PROGRAM.......3

          INDIANA’S MANUFACTURER REBATE PROGRAM .......................................3

          POTENTIAL SAVINGS FOR THE ILLINOIS MEDICAID PROGRAM ..............4

          RECOMMENDATION .............................................................................................4

          STATE AGENCY COMMENTS ..............................................................................4

APPENDIX

          STATE AGENCY COMMENTS




                                                                    iii
                                        INTRODUCTION

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the Medicaid program. Each
State administers its Medicaid program in accordance with a CMS-approved State plan.
Although the State has considerable flexibility in designing and operating its Medicaid program,
it must comply with applicable Federal requirements.

Federal Requirements

Pursuant to section 1915(a)(1)(B) of the Act and requirements established in 42 CFR § 431.51(d)
and 42 CFR § 431.54(d), a State Medicaid agency may establish special procedures for the
purchase of medical devices through a competitive bidding process or other process if the State
assures, in the certification required under section 431.51(d), and CMS finds that adequate
services or devices are available to beneficiaries under the special procedures.

Illinois Medicaid Manufacturer Rebate Program

State Medicaid agencies may obtain a waiver from CMS to establish special procedures for the
purchase of medical devices, including home blood-glucose test strips (test strip). A number of
States have established arrangements in which manufacturers of test strips agree to provide a
rebate to States for each of the manufacturers’ products dispensed to Medicaid recipients and
billed to State Medicaid agencies. The Illinois Department of Healthcare and Family Services’
(State agency) State plan Appendix to Attachment 3.1-A 12(a) allows for the negotiation of
rebates with test strip manufacturers. The negotiated test strip contracts state that all information
received or accessed pursuant to the contract is confidential unless otherwise designated by the
disclosing party.

According to Illinois’ Handbook for Providers of Pharmacy Services, the State agency allows
eligible pharmacy providers (providers) in the Illinois Medicaid program to bill for medical
supplies, including test strips. Providers are reimbursed for test strips at the lesser of the
provider’s usual and customary charge or the average wholesale price plus 25 percent.

The State agency solicited proposals for rebates from manufacturers of test strips. The State
agency awarded contracts to four manufacturers on the basis of a clinical review of the product
and a financial analysis of the rebate amount. Medicaid beneficiaries could obtain test strips
from providers enrolled in the Illinois Medicaid program. The beneficiaries could also purchase
test strips not covered by one of the rebate agreements but only after obtaining a State agency
prior authorization based on medical necessity. Illinois’ manufacturer rebate program began
operating in June 2004.




                                                  1
OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Illinois Medicaid program could achieve savings for
test strips.

Scope

Our audit covered Medicaid payments for test strips during State fiscal year (SFY) 2011 (July 1,
2010, through June 30, 2011). We limited our review to paid claims for test strips that were
covered by Illinois’ rebate agreements, which represented 99 percent of all pharmacy test-strip
claims for the audit period.

We limited our internal control review to obtaining an understanding of the State agency’s
test-strip pricing and reimbursement policies.

Methodology

To accomplish our audit objective, we:

   •    reviewed applicable Federal and State requirements,

   •    discussed the manufacturer test-strip rebate program with State agency officials,

   •    identified test-strip rebate amounts negotiated between the manufacturers and the State
        agency,

   •    obtained from the State agency and reviewed a list of Illinois Medicaid payments for test
        strips associated with claims that had dates of service during SFY 2011,

   •    confirmed that rebates were collected from manufacturers and that the Federal share of
        Medicaid assistance was appropriately reduced by that amount,

   •    determined the approximate amount of cost savings associated with rebates received
        under the manufacturer rebate program during SFY 2011, and

   •    determined the approximate amount of additional cost savings possible by applying
        rebate amounts negotiated by the Indiana Medicaid program to actual State agency
        purchase quantities.

Although we did not independently verify the reliability of the Medicaid paid claims data, we
discussed the data with State agency officials, sorted paid claims to identify variations in
payment rates, and compared the total quantity of test strip claims to other State Medicaid
programs in making a subjective determination of data reliability. From these efforts, we
determined the data obtained from the State agency was sufficiently reliable for this audit.

                                                 2
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                               FINDINGS AND RECOMMENDATION

Through its manufacturer rebate program, the Illinois Medicaid program reduced the net cost 1 of
test strips purchased during SFY 2011. The net cost of test strips obtained through Illinois’
manufacturer rebate program was significantly lower than the Illinois Medicaid average
reimbursement rate for test strips. The State agency’s use of manufacturer rebates led to reduced
costs that provided mutual benefits to the State and Federal Governments, while maintaining
access to test strips for Illinois Medicaid beneficiaries.

However, we determined that the Illinois average Medicaid provider reimbursement rate for test
strips was significantly greater than the corresponding Illinois Medicare rate. The higher
provider reimbursement rates in Illinois may have limited the amount of cost-savings the State
could achieve with its rebate program. The manufacturer rebate, which is not based on the
Illinois reimbursement rate for test strips, offsets only a portion of the significantly greater
provider reimbursement rate. The net Medicaid payment rates Illinois obtained through
manufacturer rebates were significantly greater than the corresponding Indiana Medicaid rate.
By reducing its provider reimbursement rates, Illinois could further lower the net cost of test
strips. If it had used this approach, which reflects the Indiana Medicaid program’s experience,
the Illinois Medicaid program could have achieved additional savings of approximately
$8.5 million for SFY 2011.

COST SAVINGS ACHIEVED BY THE ILLINOIS MEDICAID PROGRAM

The net cost for test strips obtained through Illinois’ manufacturer rebate program was
significantly lower than the Illinois average Medicaid reimbursement rate. We reviewed the total
amount the State agency reimbursed providers for test strips and the total amount the State
agency received in manufacturer rebates to determine the rebate and savings amounts. We
determined that the Illinois Medicaid program achieved a net reduction of Medicaid test strips
costs and effectively lowered Medicaid costs for the State and Federal Governments.

INDIANA’S MANUFACTURER REBATE PROGRAM

The Indiana Medicaid program has achieved impressive cost savings for test strips through its
manufacturer rebate program. Indiana obtained a waiver from CMS on December 1, 2010, to
implement a selective contracting program for test strips under the exemptions permitted in
section 1915(a)(1)(B) of the Act and requirements established in 42 CFR § 431.51(d) and

1
  Net cost equals the Medicaid average reimbursement rate (per 50-unit pack) minus the applicable manufacturer
rebate amount (per 50-unit pack). Illinois’ manufacturer rebate amounts include proprietary information; therefore
we have not presented the Illinois net costs after rebate in this report.


                                                         3
42 CFR § 431.54(d). Indiana solicited proposals from manufacturers of test strips through a
request for proposal procurement process. Indiana had two separate manufacturer rebate
contracts, with rebate amounts that reduced the net costs to $17.72 and $14.70, respectively. 2
The selective contracting program resulted in rebates of approximately 50 percent of the amounts
reimbursed to Indiana Medicaid providers. 3

POTENTIAL SAVINGS FOR THE ILLINOIS MEDICAID PROGRAM

Significant cost savings can be achieved by Illinois through the reduction of provider
reimbursement rates. We determined that the average Medicare reimbursement rate for test
strips in Illinois was approximately 40-percent less than the average Medicaid reimbursement
rate in Illinois. Illinois’ significantly greater provider reimbursement rates create a higher
starting cost that may limit the total cost-savings the State can achieve with its manufacturer
rebate program. We determined the payment rates that the Indiana Medicaid program obtained
through manufacturer rebates were significantly lower than the Illinois average Medicaid
reimbursement rate after accounting for rebate amounts. 4

Using our review of Medicaid paid claims for test strips and the current net Indiana Medicaid
payment rate, we determined that the Illinois Medicaid program could have achieved additional
savings of $8,542,819 in SFY 2011 if the State agency had reduced its reimbursement rates to
providers to further lower the net cost of test strips and so matched the experience of the Indiana
Medicaid program.

RECOMMENDATION

We recommend the State agency lower the net cost of test strips through changes to provider
reimbursement rates, which could have resulted in an additional $8.5 million in savings in
SFY 2011.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our recommendation.
The State agency’s comments are included in their entirety as the Appendix.




2
 Indiana’s manufacturer rebate amounts do not include proprietary information, so we have included the Indiana net
costs after rebate in this report.
3
 Indiana Reduced Medicaid Costs for Home Blood-Glucose Test Strips by Approximately 50 Percent Using
Manufacturer Rebates, June 21, 2012 (A-05-12-00011).
4
 The reimbursement rates reflect the net cost after the manufacturer rebate payable to the Indiana Medicaid program
on covered products dispensed by providers. Indiana had two rebate agreements in calendar year 2011, which
provided net unit costs of $17.72 and $14.70. We used the higher net unit cost of $17.72.

                                                        4
APPENDIX
                              APPENDIX: STATE AGENCY COMMENTS


                  I UI NOI$ O.,. . . . . (Nf   o•


fHfs              Ikalthcarc and
                 Family Services
                                                                              Pat Quinn, Governor
                                                                              Julie Hamos, Director


201 South Grand Avenue East                                                   Telephone: (217) 782-1200
Springfield, Illinois 62763-0002                                              TTY: (800) 526-5812


                                                    March 28, 201 3




     Department of Health and Human Services
     Office of Audit Services, Region V
     Attn: Sheri L. Fulcher, Regional Inspector General for Audit Services
     233 North Michigan Avenue, Suite 1360
     Chicago, Illinois 6060 I

     Re: Draft Audit Report Number A-05-12-00009

     Dear Ms. Fu lcher:

    Thank you for providing the opportunity to comment on your d raft audit report enti tled "The Illinois
    Manufacwrer Rebate Program Significantly Reduced Medicaid Costs for Home Blood-Glucose Test
    Strips but Could Achieve Additional Reductions".

    The Department concurs with the recommendation . The Department followed pricing methodology for
    over-the-counter (OTC) products for test strip pricing prior to February l, 2012. That methodology is
    established in both administrative rule and state plan. The Department filed, and the Centers for
    Medicare and Medicaid Services approved, a state plan amendment to allow state maximum allowable
    wst pridng for OTC products effective February 1, 2012. The Department obtai ned limited pharmacy
    acquisition cost information which demonstrated that pharmacies can purchase test strips at, but not
    below wholesale acquisition cost (WAC). The Department changed the pricing methodology for test
    strips to WAC effective July 1, 2012.

    We appreciate the work completed by your audit team. lf you have any questions or comments about
    our response to the audit, please contact Jamie Nardulli, External Audit Liaison, at (217) 557-0576 or
    through email at jamie.nard ulli @illinois .gov .

    Sincerely,




    JulieHamos
    Director



E-mai l: hfs.webmaster@illinois.gov                                          Internet: http://www.h fs.illinois .gov/
